U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Alvin Christopher Penn v. United States of America,
S.Ct. No. 20-6791

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 4,
2021, and placed on the docket on January 8, 2021. The government’s response is due on
February 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 10, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6791
PENN, ALVIN CHRISTOPHER
USA

JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
CLAIRE LABBÉ
NORTHWESTERN SUPREME COURT
PRACTICUM
375 EAST CHICAGO AVENUE
CHICAGO, IL 79109
312-503-0063
JAY R. SCHWEIKERT
CATO INSTITUTE
1000 MASSACHUSETTA AVE., NW
WASHINGTON, DC 20001
202-842-0200
JSCHWEIKERT@CATO.ORG
JAMES MATTHEW WRIGHT
OFFICE OF THE FEDERAL PUBLIC DEFENDER
500 S. TAYLOR
SUITE 110
AMARILLO, TX 79109
806-324-2370
MATTHEW_WRIGHT@FD.ORG

